IN THE
SUPREME COURT OF THE UNTED STATES
OCTOBER TERM 2020
Ronnie Smith, Pro Se,
Plaintiff-Appellant,
v.
New York state Child Support Processing Center, Offset
Unit; Thrift Saving Plan,

Defendant-Appellees.

PROOF OF MAIL SERVICE
I, Ronnie Smith, appearing pro se, do swear or declare
on this date of July 27, 2020, pursuant to United States
Supreme Court Rule 29.5, and served the attached Petition
for Writ of Certiorari on each of the above captioned
proceeding, on each party counsel, and on every person
required to be served by depositing an envelope Containing
the above documents in the United States mail properly
addressed to each of them and with first class postage
prepaid is deemed sufficient mail service.
The Names And Addresses of Those Are Served As Follows
Below:
Office of the Supreme Court: of the United States, at 1
First Street, N.E., Washington, D.C. 20453, Phone (203)

1

479-3011; Counsel for the Defendant New York State Child
Support Processing Center, Offset Unit, Barbara D.
Underwood, New York State Attorney General Office, 28
Liberty Street, New York, new York 10005, 1(800)771-7755;
And Counsel for defendant Thrift saving Plan, Benjamin H.
Torrance, Assistant U.S. Attorney office of the Southern
District of New York, at 88 Chambers Street, New York, New
York 10007. Petitioner has now fully complied with the
United States Supreme Court Rule 29.5.

Dated: July 27, 2020.
New York, New York.

Respectfully Submitted,

Ronnie Smith, Pro Se
641 East 13th Street, 6A
New York, New York 10009
(646) 833-5139

Sworn to before me this

2-^)- day o£ July 2020
S7
No tary/Publie

ALEX NOSKOV
Notary Public, State of New York
No. 01N05066358
Qualified in Queens County *)J\
Commission Expires September 23,
—

2

Supreme Court Rule 14.1, if set in the text of the brief rather than in
the appendix, and are excluded.

Dated- July 27, 2020.

Respectfully Submitted,

Ronnie Smith, Pro Se
641 East 13th Street, Apt. 6A
New York, New York 10009
(646) 833-5139

Sworn to before me this
20- day of July 2020
ALEX NOSKOV
Notary Public, State of New York
No. 01N05066358
Qualified in Queens County
Commission Expires September 23,--------

Notary Public

r
who are not. For those who are prisoners obtaining forma pauperis
certification is somewhat more complicated. The law requires payments of
installments from prisoner’s inmate fund account. The statue also, may
disqualify those from forma pauperis consideration if they file three prior
frivolous lawsuits. See, 28 USC Section 1915[g].
WHEREFIRE, Petitioner respectfully request sought granting Petitioners
to prosecute this Writ of certiorari in forma pauperis status pursuant to
United States Supreme Court Rule 39, and 28 USC Section 1746, and other
further relief deemed just.

Dated- July 27, 2020.
New York, New York.
Respectfully Submitted,

Ronnie Smith, Pro Se
641 East 13th Street, Apt. 6A
New York, New York 10009
(646) 833-5139

Sworn to before me this
7 r day of July 2020
Notary Public

ALEX NOSKOV
Notary Public, State of New York
No. 01N05066358
Qualified in Queens County yj/y
Commission Expires September 23----------

